WAIVER

SUPREME COURT OF THE UNITED STATES

 

Supreme Court Case wo 209986
Tracy Lynn Cope , Randy Lee, Warden
(Petitioner) (Respondent)

J DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.

Please check the appropriate boxes:

{=| Please enter my appearance as Counsel of Record for all respondents.

 

(J There are multiple respondents, and I do not represent ail respondents, Please enter my
appearance as Counsel of Record for the following respondent(s):

 

| I am a member of the Bar of the Supreme Court of the United States.

 

Tam not presenjly a member of the Bar of this Court. Should a response be requested, the response
will be filed b; member.

 

 

 

  

Signature?

Date:_ Lofts / zpue
(Type or print) Name Michael M. Stahl
BM CMs.) (Mrs. C) Miss
in Lennessee Attorney General

301 6th Ave. N.
City & State Nashville, TN 2 ip 37243
Phone O15) 253-5463 Eman Michael.Stahl@ag.tn.gov

 

 

 

 

 

Fin
Address.

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED,

oa:
